                                         NATIONAL SCIENCE FOUNDATION
                                          OFFICE OF INSPECTOR GENERAL
                                            OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

TO: AIGI           File Number: I92080022

Subject: Closeout Memo
                              \




                                                                            I
                                                                                Date: 09 March 2002

                                                                                        Page 1 of 1
                                                                                                         I11
      There was no closeout written at the time this case was closed.' The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject' was alleged to have harassed the complainant2using her
      NSF telephone. The subject was counseled by her supervisor. No further action was taken.

      Accordingly this case is closed.




               I    Prepared by:   I              Cleared by:              11


 Signature &
